                                                                             Report No. DODIG-2014-065



              I nspec tor Ge ne ral
                                                       Department of Defense

              APRIL 30, 2014




                     Evaluation of Department of
                     Defense Interaction with State
                     Defense Forces




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                        d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                                       Executive Summary
                                       Evaluation of Department of Defense Interaction with
                                       State Defense Forces



April 30, 2014

Who Should Read                                           Synopsis
This Report                                               Provisions for states to maintain State Defense Forces (SDF)
                                                          are outlined in section 109, title 32, United States Code
Representatives from the Under Secretary
                                                          (32 U.S.C. § 109 [2013]). They are probably the least
of Defense for Policy, Assistant Secretary of
                                                          well-known military element operating in the U.S. Initially
Defense for Homeland Defense and Americas’
                                                          established by Congress in the early 20th century1 and
Security Affairs, Chief, National Guard Bureau,
                                                          authorized in their current form in 1955,2 there were active
and Commander, United States Northern
                                                          SDF in 22 states and Puerto Rico, as of March 2014. These
Command should read this report.
                                                          forces had an estimated aggregate membership of about
                                                          14,0003 and performed missions ranging from ceremonial
What We Recommend                                         guards during state events to assisting first-responders
   A.	 The Under Secretary of Defense for                 during state emergencies.
       Policy, in coordination with the Office of
                                                          The purpose of this assessment was to review the
       General Counsel, clarify the position of
                                                          effectiveness of DoD interaction with SDF. We found that
       the Department and characterize the
                                                          the status of SDF varied among the states choosing
       level of coordination and interaction
                                                          to establish them, and the interaction between DoD
       between the DoD Components and State
                                                          and the 23  SDF was not properly defined. Improved
       Defense Forces permissible by statute.
                                                          DoD/SDF cooperation and interaction was impeded by
   B.	 Chief, National Guard Bureau, modify               two critical aspects.
       National Guard Bureau Regulation 10‑4,
                                                          Improper and overly restrictive implementation of the
       “Organization and Functions: National
                                                          statute establishing SDF nearly prohibited DoD interaction
       Guard Interaction with State Defense
                                                          with or support of those forces.4 A correct interpretation
       Forces,” to state that State Defense Forces
                                                          of the language differentiates voluntary, state-maintained “
       be considered as any other State agency
                                                          other troops” from the dual-function National Guard.
       with respect to State Defense Forces
       preparation for and participation in               	1	
                                                              Public Law 64–85, Section 61(b), “The National Defense Act of 1916.”
       Federal responses, and the related use             	2	
                                                              Public Law 84-364, “To Authorize the States to Organize and Maintain Stated
       of Federal equipment, excepting the                    Defense Forces, and for Other Purposes, 1955.”
                                                          	3	
       specific restrictions of section 109(d),               Data as of 2005 in “Why More States Should Establish State Defense Forces,”
                                                              The Heritage Foundation, February 28, 2012 http://www.heritage.org/
       title 32, United States Code.                          research/reports/2012/02/why-more-states-should-establish-state-
                                                              defense-forces.
                                                          	4	
                                                              Section 109(d), title 32, United States Code (32 U.S.C. § 109 [2013]), pg. 2,
                                                              states that, “A member of a defense force…is not…entitled to pay, allowances,
                                                              subsistence, transportation, or medical care or treatment, from funds of the
                                                              United States.”




Visit us on the web at www.dodig.mil


                                                                                DODIG-2014-065 (Project No. D2010-DIP0E3-0156.000) │ i
                   Accordingly, as state organizations, SDF would not be eligible for Federal benefits, such as
                   pensions and access to the Federal military healthcare system. However, this prohibition did
                   not prohibit DoD from sharing with SDF any equipment or other resources acquired with
                   Federal funds providing it furthers DoD missions.

                   The Office of the Secretary of Defense and DoD agencies lacked policy outlining the sharing
                   and loaning of DoD equipment or other guidance governing DoD interaction with SDF.
                   The only current policies directly addressing SDF was National Guard Regulation 10-4,
                   “Organization and Functions: National Guard Interactions with State Defense Forces,”
                   November  2,  2011, applicable only to the National Guard, and Army Regulation 670-1,
                   “Wear and Appearance of Army Uniforms and Insignia,” February  3,  2005, Rapid Action
                   Revision (RAR), issue date May  11,  2012. Recent changes to policy controlling combined
                   disaster response of DoD, the National Guard, and other state actors did not include
                   discussion of SDF.


                   Recommendations, Management Comments, and
                   Our Response
                   Recommendation A
                   Under Secretary of Defense for Policy, in coordination with the Department of Defense
                   Office of General Counsel, clarify the position of the Department with regard to what efforts
                   are legally permissible for coordination and interaction between DoD organizations and
                   State Defense Forces, and if permitted, characterize the nature of the coordination
                   and interaction.

                   Office of the Under Secretary of Defense for Policy
                   The Under Secretary of Defense for Policy non-concurred with our recommendation,
                   stating that “a consistent definition of the permissible use of DoD resources for SDFs is
                   prescribed in 31 U.S.C. §1301(a), which provides: ‘Appropriations shall be applied only to
                   the objects for which the appropriations were made except as otherwise provided by law.’”

                   Our Response
                   We considered the management comments partially responsive.  The intent of our
                   recommendation was to alleviate observed inconsistency in the interpretation and
                   application of the language contained in section 109(d), title 32, United States
                   Code. U.S. States that chose to create SDF gave them a variety of missions leading
                   to unique interactions with DoD Components, primarily the National Guard.

                   While we still think that the Office of the Under Secretary of Defense for Policy should clarify
                   and communicate to State Adjutants General the mechanism by which they can obtain
                   a consistent interpretation of the permissible use of Federal resources by SDF, we accept
                   management’s analysis of the risk associated with their proposed course of action.




ii │ DODIG-2014-065 (Project No. D2010-DIP0E3-0156.000)
Recommendation B
Chief, National Guard Bureau, modify National Guard Bureau Regulation 10-4, “Organization
and Functions: National Guard Interaction with State Defense Forces,” to establish that
State Defense Forces be considered as any other State agency with respect to State Defense
Forces preparation for and participation in Federal responses, and the related use of Federal
equipment, excepting the specific restrictions of section 109(d), title 32, United States Code.

Office of the Under Secretary of Defense for Policy
The Under Secretary of Defense for Policy non‑concurred with our original recommendation
to develop and publish guidance for DoD Components governing interactions with SDF.
Management stated that SDF were “treated like other State government entities that DoD
may interact with, and there are provisions in force that address DoD Components’
interactions with State entities, citing DoD Directive 1100.20, “Support and Services for
Eligible Organizations and Activities Outside the Department of Defense,” as an example.

Our Response
The comments from the Under Secretary of Defense for Policy were partially responsive.
We met with the Deputy Under Secretary of Defense for Homeland Defense Strategy and
Force Planning, who asserted that additional DoD policy was not necessary. However,
management agreed that, while SDF were unique in several ways, interaction with DoD
Components should be at least on-par with other State agencies. In response, we have
modified and redirected the recommendation to the Chief, National Guard Bureau,
recommending that the Bureau change the regulation governing National Guard/SDF
interaction to state that SDF be considered as any other State entity, excepting those
specific restrictions stated in section 109(d), title 32, United States Code.




                                                               DODIG-2014-065 (Project No. D2010-DIP0E3-0156.000) │ iii
                   Recommendations Table
                                                            Recommendations       No Additional
                       Office of Primary Responsibility     Requiring Comment   Comments Required
                    Under Secretary of Defense for Policy                              A
                    Chief, National Guard Bureau                                       B




iv │ DODIG-2014-065 (Project No. D2010-DIP0E3-0156.000)
                             INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                            4800 MARK CENTER DRIVE
                         ALEXANDRIA, VIRGINIA 22350-1500


                                                                        April 30, 2014

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR POLICY
               CHIEF, NATIONAL GUARD BUREAU

SUBJECT: Evaluation of Department of Defense Interaction with State Defense Forces
	        (Report No. DODIG-2014-065)

The Deputy Inspector General, Special Plans and Operations, is providing this
report for your information and use. We considered management comments on a
draft of this report when preparing the final report.

We appreciate the courtesies extended to our staff. Please direct questions
to Mr. George Marquardt at (703)  604‑9159, george.marquardt@dodig.mil or
Mr. Gregory D. Sampson, (703) 604‑9104, gregory.sampson@dodig.mil.




	 Kenneth P. Moorefield
	 Deputy Inspector General
		 Special Plans and Operations




                                                                                     DODIG-2014-065 │ v
                  Distribution:

                  Office of the Secretary of Defense
                       Under Secretary of Defense (Personnel and Readiness)*
                       Assistant Secretary of Defense (Reserve Affairs)*
                       Under Secretary of Defense (Policy)*
                       Assistant Secretary of Defense for Homeland Defense and America’s Security Affairs
                       Assistant Secretary of Defense (Legislative Affairs)
                  Department of the Army
                       Assistant Secretary of the Army (Manpower and Reserve Affairs)*
                  National Guard Bureau
                       Office of the Chief, National Guard Bureau*
                  Joint Staff
                       Director, Joint Staff
                  Combatant Command
                       Commander, U.S. Northern Command
                  Congressional Committees and Subcommittees
                       Senate Committee on Armed Services
                       Senate Committee on Homeland Security and Governmental Affairs
                       Senate Subcommittee on Defense, Committee on Appropriations
                       House Committee on Armed Services
                       House Committee on Oversight and Government Reform
                       House Subcommittee on Defense, Committee on Appropriations

                  * Indicates recipient of the Draft Report.




vi │ DODIG-2014-065
Contents
Introduction
Background_______________________________________________________________________________________1
Objectives_________________________________________________________________________________________8
Scope and Methodology_________________________________________________________________________8

Observation _____________________________________________________________________________9
A. Fiscal Law and Regulations Impacting Use of State Defense Forces____________________ 11
B. DoD Policy and Guidance__________________________________________________________________ 17

Impacts____________________________________________________________________________________ 25
Missed Opportunities and Efficiencies_______________________________________________________ 25
State Defense Forces Support to the National Guard________________________________________ 27
Fiscal Law and Regulatory Guidance_________________________________________________________ 28
Conclusion______________________________________________________________________________________ 29

Appendixes
Appendix A. History of State Defense Forces________________________________________________ 31
Appendix B. State Defense Forces Information Summary__________________________________ 35
Appendix C. State Defense Forces Structured Questionnaire for State
   Adjutants General_ ________________________________________________________________________ 37
Appendix D. State Defense Forces Structured Questionnaire for State
   Defense Force Commanders______________________________________________________________ 42
Appendix E. Scope and Methodology________________________________________________________ 56
Appendix F. Other Military Auxiliaries_______________________________________________________ 58

Management Comments_____________________________________________________ 61
Acronyms and Abbreviations______________________________________________ 63




                                                                                                   DODIG-2014-065 │ vii
                                                                                                                                Introduction




Introduction
State Defense Forces (SDF) are one modern-day manifestation of the historical
concept of the “citizen soldier,” an idea constant throughout U.S. history. Initially
established by Congress in the early 20th century5 and authorized in their current
form in 1955,6 they are the least well-known element of the military establishments
of the states. Although the authorizing statute for SDF appears in the United States
Code in title 32, “National Guard” (32 U.S.C. [2011]) SDF is distinct from the
National Guard in that individuals are prohibited from serving in both organizations
at the same time.7 See Appendix A for a brief history of SDF.


Background
As of March 2014, chief executives of 22 states and Puerto Rico chose to form SDF.
The 23 active SDF had an estimated aggregate membership of 14,0008 and
performed missions ranging from ceremonial guards during state events to assisting
first-responders during state emergencies.

Figure 1. Locations of Active SDF as of March 2014.




      Source: DoD IG-SPO

	5	
    Public Law 64–85, Section 61(b), “The National Defense Act of 1916.”
	6	
    Public Law 84-364, “To Authorize the States to Organize and Maintain Stated Defense Forces, and for Other
    Purposes, 1955.”
	7	
    Section 109(e), title 32, United States Code (32 U.S.C. 109§ [1956]), “Maintenance of other Troops.”
	8	
    Data as of 2005 in “Why More States Should Establish State Defense Forces,” The Heritage Foundation, February 28, 2012
    http://www.heritage.org/research/reports/2012/02/why-more-states-should-establish-state-defense-forces.




                                                                                                                             DODIG-2014-065 │ 1
Introduction



                 The U.S. Constitution establishes the Armed Forces and the militia. Title 10, United
                 States Code (10 U.S.C. [2012]), defines the eligibility, classes, and mission of the militia
                 of the several states, but does not address SDF. Title 32, United States Code,
                 describes the “organized militia,” now known as the National Guard, and, as stated
                 earlier, authorizes states to establish defense forces.


                 Constitutional Authority
                 Article I, section 8 of the U.S. Constitution endorses the existence and potential
                 value of armies, the Navy, and the militia, and establishes basic roles for Federal and
                 state governments with respect to their administration and operation. However,
                 Article I, section 10 of the U.S. Constitution prohibits states from maintaining
                 State Guards in times of peace, without the express consent of Congress.9


                 Title 10, United States Code – “Armed Forces”
                 The Militia Act of 190310 defined the composition and classes of the militia. Current
                 United States Code states:

                                      The Militia consists of all able-bodied males of at least 17 years of
                                      age and, except as provided in section 313 of title 32, under 45 years
                                      of age who are, or who have made a declaration of intention to
                                      become, citizens of the United States and of female citizens of the
                                      United States who are members of the National Guard.


                 Section 311, title 10, United States Code (10 U.S.C. § 311 [1956]) also established
                 two classes of the militia: the “organized militia,” consisting of the National Guard
                 and the Naval militia; and the “unorganized militia,” consisting of “members of the
                 militia who are not members of [the former].” This distinction differentiates those
                 forces that were uniformed and attended regular drill (mustered) from the
                 remaining eligible persons who were not assigned to an organized militia unit, did not
                 wear uniforms, and did not undergo training.


                 Title 32, United States Code – “National Guard”
                 The version of title 32, United States Code, in force in 2013 (32 U.S.C. [2013]),
                 recognizes the National Guard as the “organized militia.” The historical and
                 revision notes for section 110 state that “the words ‘National Guard’ are substituted




                 	 9	
                         “No State shall, without the consent of Congress,…keep troops or ships of war in time of peace…”
                 	 10	
                         The Militia Act of 1903 (32 Stat, 775), is codified in section 311, title 10, United States Code (10 U.S.C. 311 [1956]).




2 │ DODIG-2014-065
                                                                                                                                    Introduction



for the words ‘the militia provided for in this title.’”                                  Also, section 507 states,
“the words ‘National Guard’ are substituted for the words ‘troops of the militia,’
since the source statute historically applied only to the organized militia….”


Legislation Authorizing State Defense Forces
As noted, contemporary SDF were authorized by Congress in 1955. Congressional
intent was to grant the states permissive authority to legally organize a nucleus
of volunteers in time of peace for which the Federal Government would bear no
obligation for “pensions or disability allowances or medical care.” The sole
obligation was to distribute arms and equipment “under such terms as the
Department of Defense might prescribe.”11  DoD and the National Guard Association
of the U.S. both strongly endorsed the legislation on record. The representative
from the National Guard Association of the U.S. stated that, “it appears foolhardy
to wait until a national emergency is upon us and the National Guard is ordered
into the Federal service before at least laying the groundwork for a State defense
force.”12  Unlike previous authorizations for State Guard forces that were passed
during major conflict, the 1955 legislation provided permanent authority.

As of March 2014, the governing legislation for SDF is section 109, title 32, United
States Code (32 U.S.C. §109 [2013]).

                   Sec. 109. Maintenance of other troops

                     (a)	 In time of peace, a State, the Commonwealth of Puerto Rico,
                          the District of Columbia, Guam, or the Virgin Islands may
                          maintain no troops other than those of its National Guard and
                          defense forces authorized by subsection (c).

                     (b)	 Nothing in this title limits the right of a State, the
                          Commonwealth of Puerto Rico, the District of Columbia, Guam,
                          or the Virgin Islands to use its National Guard or its defense
                          forces authorized by subsection (c) within its borders in time
                          of peace, or prevent it from organizing and maintaining police
                          or constabulary.

                     (c)	 In addition to its National Guard, if any, a State, the
                          Commonwealth of Puerto Rico, the District of Columbia, Guam,
                          or the Virgin Islands may, as provided by its laws, organize



	11	
       Senator Richard B. Russell, Chairman of the Senate Committee on Armed Services in a hearing on July 28, 1955, reference
       House Resolution 7289, “Authorizing the States to Organize and Maintain State Defense Forces.”
	12	
       Prepared statement of Major General Ellard A. Walsh, President, the National Guard Association of the United States, to
       the Senate Committee on Armed Services, July 28, 1955.




                                                                                                                                 DODIG-2014-065 │ 3
Introduction



                                       and maintain defense forces. A defense force established
                                       under this section may be used within the jurisdiction
                                       concerned, as its chief executive (or commanding general
                                       in the case of the District of Columbia) considers necessary,
                                       but it may not be called, ordered, or drafted into the armed forces.

                                  (d)	 A member of a defense force established under subsection (c)
                                       is not, because of that membership, exempt from service in the
                                       armed forces, nor is he entitled to pay, allowances, subsistence,
                                       transportation, or medical care or treatment, from funds of
                                       the United States.

                                  (e)	 A person may not become a member of a defense force
                                       established under subsection (c) if he is a member of a reserve
                                       component of the armed forces.


                 Organization
                 SDF are elements of the State Military Department of the states and territories
                 in which the Chief Executive has chosen to establish them (see Figure 2).

                 Figure 2. Universe of Duty Status for Soldiers in the U.S. Military Establishment


                                                               US ARMY ACTIVE DUTY Title 10
                       United FEDERAL
                       States  Title 5                           US ARMY RESERVE Title 10
                                                                ● IRR     ● Retired   ● Inactive Reserve
                       Army    CIVILIAN
                                   EMPLOYEES
                                                                 NATIONAL GUARD Title 10
                                                  and those Title 32 that are activataed to Title 10 for a limited time

                                                                 NATIONAL GUARD Title 32
                                                                   Federally funded under Governor
                       State        STATE                            or dual command and control
                      Military      CIVILIAN
                                   EMPLOYEES
                       Dept.                      NATIONAL GUARD
                                                      State Active Duty

                                                               STATE DEFENSE FORCE
                                          State Active Duty                                         State Active Duty
                                          Non-military tasks                                  Inherently military tasks

                     Source: DoD IG-SPO




4 │ DODIG-2014-065
                                                                                                          Introduction




  Figure 3. An Armed California SDF Soldier Serves on a Force Protection Detail at Joint Forces Base
  Los Alamitos. Source: California State Military Reserve



SDF are authorized by Federal law and established under state law. The Governor
serves as Commander-in-Chief of all state military forces (National Guard, SDF,
and Naval Militia). All state military forces, including SDF, reported to the
respective state Adjutant General, who was the senior military officer of the state.
States were able to establish age, medical, educational, and other standards for
their SDF, and standards varied considerably among the states. Some states
reported published, enforced standards, while, in many states, standards were
absent altogether. SDF units that employed personnel in professional capacities,
such as legal or medical fields, relied on state licensing for accreditation and
skill validation.


Missions
SDF reported performing missions ranging from ceremonial guard to unarmed
crowd control at special events to armed force protection of state National Guard
assets. Several states assigned SDF more specialized missions in homeland
security-related fields including, but not limited to, disaster recovery, shelter
operations, and search and rescue. For example, three states reported assigning
units of their SDF specialized missions:

          •	 The New York Guard (New York SDF) augmented the decontamination
              team of the New York National Guard’s Chemical, Biological, Radiological,
              Nuclear, and Explosives Enhanced Response Force Package.




                                                                                                       DODIG-2014-065 │ 5
Introduction



                          •	 The California State Military Reserve (California SDF) had a small arms
                            training team devoted to training state National Guard Soldiers in
                            advanced     small     arm   techniques   and   tactics   in   preparation   for
                            Federal deployment.

                          •	 The Texas State Guard (Texas SDF) established a Maritime Regiment
                            that had an agreement with the Department of Homeland Security to
                            train and certify members of the Texas State Guard to augment crews
                            on United States Coast Guard vessels.

                 The end of the Vietnam War, the conclusion of the Cold War, the attacks on
                 September 11, 2001, and natural disasters such as Hurricane Katrina, all
                 contributed to significant structural changes to the Federal Government, including
                 the creation of the Department of Homeland Security. For DoD in particular,
                 these events, among others, led to the:

                          •	 volunteer military,

                          •	 rebalancing between active-duty and National Guard forces,

                          •	 long-term commitment of forces to operations in Southwest Asia,

                          •	 establishment of an Assistant Secretary of Defense for Homeland Defense
                            and Americas’ Security Affairs and U.S. Northern Command, and

                          •	 elevation of the Chief, National Guard Bureau to four-star rank and a
                            position in the Joint Chiefs of Staff.

                 Federal organizational changes impacted the historical relationship between
                 DoD and SDF.      The high level of interagency cooperation and interconnectivity
                 has highlighted the potential benefits of a properly defined relationship between
                 DoD and SDF with regard to crisis response and support to other operations.

                 Relevant to SDF, the Federal civil and military response to major events and,
                 specifically, the role of the National Guard is very different from when SDF were
                 first authorized.  From its origin, the National Guard was trained and resourced as
                 a Federal strategic reserve to the Armed Forces and the primary source for state
                 emergency response.  Beginning in the early 1990s, the National Guard and Reserves




6 │ DODIG-2014-065
                                                                                         Introduction



have evolved into an essential element of the military’s operational forces.  National
Guard units have met a rigorous mobilization and deployment schedule in support
of overseas contingency operations as part of this evolution.

Since 1955, U.S. Senators and Representatives have submitted multiple bills
and amendments that would modify the enabling legislation and status of SDF.
The most recent submission was “The State Defense Force Improvement Act,”
included in the draft National Defense Authorization Act of 2010. The Act stated
that SDF were impeded by a lack of clarity in Federal regulations and that SDF
suffered from a lack of standardization, support, and coordination with the DoD.13
The Act also sought to recognize SDF as an integral military component of the
homeland security effort of the United States. The SDF language was dropped from
the National Defense Authorization Act of 2010 during conference deliberations.

As noted below, at least two states introduced relevant legislation attempting to
clarify the status of their SDF, although neither ultimately enacted the legislation
into state law.

Montana state legislature House Bill No. 278, section 22, “Montana Home Guard
Revitalization Act,” stated that the purpose of the Montana Home Guard14 was to
“fill the gap between community service organizations, such as a neighborhood
watch program and the Montana national guard.” This bill would have created
infantry and cavalry Home Guard units and authorized them to be armed
when necessary.

As of July 27, 2011, Arizona state law authorized the governor to establish
a state guard unit, and in January 2012, Arizona Senate Bill 1083 proposed
creating the Special Missions Unit, with the intended mission to serve as an state
militia on the border with Mexico.  Senate Bill 1083 proposed to establish the unit
outside the purview and chain of command of the Arizona National Guard,
completely segregating the SDF chain of command from DoD.  The drafters of the bill
believed that establishing the unit as a pure state entity minimized National Guard
influence over mission assignments and exempted the unit from Federal call-up.




	13	
       State Defense Force Improvement Act, H.R. 206, 111th Congress, 1st Session.
	14	
       Montana Home Guard is the name used for their State Defense Force (SDF).




                                                                                     DODIG-2014-065 │ 7
Introduction



                 Objectives
                 The overall objective of this assessment was to review DoD interaction with
                 SDF. This report specifically addresses:

                          •	 relevant legislation and DoD Component policies/regulations
                            governing SDF;

                          •	 compliance with existing law, policies, and regulations;

                          •	 effectiveness of DoD interaction with SDF; and

                          •	 Federal impediments to effective management of the SDF program.


                 Scope and Methodology
                 As a result of our research, we determined that DoD did not manage the SDF
                 program. We therefore excluded from this report the element of our objectives
                 about “Federal impediments to effective management of the SDF.”

                 For this project, the team examined documents provided by the Offices of
                 the   Assistant   Secretary   of   Defense   for   Homeland    Defense    and   Americas’
                 Security Affairs, Joint Chiefs of Staff, U.S. Northern Command, Secretary of the
                 Army, National Guard Bureau, and several state National Guard Bureaus and
                 Defense Forces.

                 We conducted 22 interviews. We met with representatives of the Assistant Secretary
                 of Defense for Homeland Defense and Americas’ Security Affairs, U.S. Northern
                 Command, the National Guard Bureau, and the Assistant Secretary of Defense for
                 Reserve Affairs. We also met with representatives of the State Guard Association
                 of the United States and several senior leaders of SDF to discuss their programs.

                 The team distributed structured questionnaires to each of the 22 states and
                 one territory (Puerto Rico) with current active SDF. Two versions were sent to each
                 state: one version to the Commanding General of the State Defense Force and the
                 other to The Adjutant General. We received responses from 19 SDF commanders
                 and 18 state Adjutants General and summarized their responses in Appendix B.
                 See Appendix C and D for copies of the questionnaires.

                 See Appendix E for further discussion of project scope and methodology.




8 │ DODIG-2014-065
                                                                                        Observation




Observation
The status of SDF varied among the states that chose to establish them, and the
interaction between DoD and SDF was not properly defined.

Two critical aspects impeded improved cooperation and interaction between DoD
and SDF.

           •	 Organizations were misinterpreting and improperly applying U.S.
             federal fiscal laws and regulations governing SDF.

           •	 National Guard Bureau policy with regard to SDF was overly restrictive.

As a result, DoD and the National Guard Bureau were potentially preventing
state executives from effectively including SDF capabilities and expertise in mission
planning and execution, and those states that actively used their SDF received
conflicting and confusing guidance. If included in mission planning and execution,
use of SDF might effectively further DoD missions.



Discussion
The status of SDF within the state military structure varied for those states that
established SDF. In response to a formal request for information, the State
Adjutant Generals and Commanding Generals of the 22 states and one territory
that maintain SDF provided information concerning the classification of SDF
organizations and personnel. See Appendix B for summarized responses and
Appendix C and D for examples of the questionnaires.

Of State Adjutant Generals who responded concerning the legal status of
SDF personnel:

           •	 Thirteen stated they designated SDF personnel as Soldiers, citing state
             law to support the assertion;

           •	 Eight stated their state military department recognized members of
             the SDF as lawful belligerents, pursuant to Army Field Manual 27-10,
             “The Law of Land Warfare;” and

           •	 Four stated their SDF were authorized to use weapons to support
             state missions.




                                                                                    DODIG-2014-065 │ 9
Observation



                 The responses from SDF Commanders underscored the varied status among the
                 states. Respondents from 18 states replied that state law considered their SDF as
                 part of the organized militia.15 This designation is significant given that, as
                 stated previously, title 32, United States Code, recognizes the National Guard as the
                 “organized militia” in Federal law.  A similar number stated that SDF were granted
                 the same legal status as the National Guard and were subject to states codes of
                 military justice, under most circumstances, when in state active-duty status.
                 Most of those recognized their authority to appoint officers of the militia, as
                 provided by article I, section 8, of the Constitution.

                 The combined responses of State Adjutants General and SDF Commanding Generals
                 shows that almost all of the missions assigned to SDF were non-military in nature.
                 Missions described included support to civilian emergency management, small‑scale
                 search and rescue, and other unarmed operations relating to homeland security.

                 The recognition of unarmed SDF personnel as organized militia, soldiers, and lawful
                 belligerents by several state Adjutants General and SDF Commanding Generals
                 underscores the uncertainty associated with SDF status. The unique status of SDF
                 within the military establishment of states creates additional challenges when
                 SDF interface with Federal entities and complicates their interactions with DoD.

                 The relationship between DoD and SDF was not properly defined. For example,
                 SDF personnel were often unable to fully participate in state missions when
                 required to work alongside DoD and NGB personnel. Further, one state military
                 department reported regulatory constraints prohibiting the desired use of SDF
                 members with professional skills (legal, medical, investigative) in voluntary support
                 of Federal missions.

                 As of the date of this report, misinterpretation and misapplication of fiscal law,
                 and the lack of DoD policy and guidance were the primary contributors to the
                 ineffective interaction between DoD and SDF.




                 	15	
                        A fact-sheet published by the National Guard Bureau also stated that SDF are “a form of militia and [are] authorized to the
                        states by federal statute. State Defense Forces are not entities of the federal government.” National Guard Bureau Public
                        Affairs Office. “National Guard and Militias,” accessed on February 11, 2011 from www.ng.mil/media/factsheets.




10 │ DODIG-2014-065
                                                                                                                                Observation



A. Fiscal Law and Regulations Impacting Use of State
Defense Forces
U.S. fiscal law and DoD financial policy and regulations were interpreted to severely
restrict the use of DoD property and resources by SDF.                                    While support from the
Department of the Army to SDF has varied over time (see Appendix A),
misapplication of statutes and other fiscal policy in 2012 nearly prohibited
DoD interaction with, or support of, SDF.


Rules Restricting the Use of Federal Funds
Section 109(d), title 32, United States Code states that, “A member of a defense
forces…is not…entitled to pay, allowances, subsistence, transportation, or medical
care or treatment, from funds of the United States.” Unnecessary restrictions
resulted from organizations improperly determining that the specific limitations
on the use of Federal funds enumerated in Section 109(d) prohibit any and all
interaction,          coordination,         or     cooperation         between        SDF       and     DoD       entities.

Expanding the five specific prohibitions enumerated in the law yields an improper
conclusion that SDF members were proscribed from any action that could result
in the use of Federal funds.  This is also contradictory to the original intent of the
legislation as described above. The result of this misinterpretation has been
a mistaken belief that providing any Federal resource (office supplies, use of
equipment, etc.) to an SDF would constitute violation of the Antideficiency Act.16

Section 109(d) imposes a narrow prohibition on the use of Federal funds for
SDF pay, allowances, subsistence, transportation, or medical care or treatment.
Accordingly, SDF would not be eligible for Federal benefits, such as pensions and
access to the Federal military healthcare system. However, this does not prohibit
DoD from allowing SDF access to Federal equipment or resources which might
benefit the execution of DoD training, exercises, or other missions. For example,
state-licensed professional SDF members (doctors, lawyers, etc.) would be able to
use a federally funded office to assist with the deployment of National Guard
troops, providing the member does not receive one of the five listed benefits.




	16	
       Sections 1341-42 and 1511-19, title 31, United States Code, “The Anti-deficiency Act,” and DoD 7000.14-R, Financial
       Management Regulation, volume 14, chapter 2, paragraph.020103.A.1, require that any expenditure of appropriated funds
       must have a specific purpose, approved by appropriate authority, and be obligated during the specific time period that
       funds are sufficient and available.




                                                                                                                            DODIG-2014-065 │ 11
Observation




                      Figure 4. A New York Guard (SDF) Soldier Supervises National Guard Soldiers Erecting a Chemical
                      Decontamination Tent. Source: New York Guard



                 State Defense Forces and the National Guard
                 As stated previously, most of the states and territories with a SDF self-limit their
                 missions to emergency response, operations center management, and ceremonial
                 activities directly related to their state or territory. For the remaining, state
                 statutes authorize governors or chief executives to assign SDF inherently military
                 tasks including, “defend, secure, repel, suppress.”  In some cases, SDF are expected
                 to assume control of all facilities and equipment of the National Guard in order to
                 fulfill state missions upon partial or full mobilization of the National Guard.

                 The Army National Guard is based in over 2,600 communities across the U.S.
                 All property purchased by Federal appropriation and issued to the National Guard
                 remains U.S. property17 and the responsibility of the Federal National Guard
                 United States Property and Fiscal Officer assigned to each of the 54 states and
                 territories.18 The United States Property and Fiscal Officer has equal responsibility
                 to both the state adjutant general and the Chief, National Guard Bureau, to ensure
                 proper reimbursement by the state for all authorized costs associated with use,
                 repair, and, if necessary, replacement of any Federal equipment or other resource
                 used during state missions.

                 On November 2, 2011, the Chief, National Guard Bureau re-issued Regulation  10‑4,
                 “Organization and Functions: National Guard Interactions with State Defense

                 	17	
                        Section 710(a), title 32, United States Code.
                 	18	
                        Section 10503, title 10 and section 708, title 32, United States Code, and National Guard Regulation 130-6 / Air National
                        Guard Instruction 36-2.




12 │ DODIG-2014-065
                                                                                                                                   Observation



Forces.” This updated regulation quotes section 109(d), title 32, United States
Code, but then adds the following additional restrictions:

                    However, a State NG [National Guard] shall not spend federal
                    funds (including pay and allowances) or use federal equipment in
                    activities which have the primary purpose of training or otherwise
                    supporting SDF[s].…Federal resources if shared with SDFs must be
                    done in IAW [in accordance with] guidance from the U.S. Property
                    and Fiscal Officer in the State.19


While the National Guard Bureau might not be prohibited from imposing these
additional restrictions, they are not required by or based in 32 U.S.C. §109(d).
State use of SDF for virtually all missions other than ceremonial duties requires
interaction with DoD-purchased equipment or other resources. SDF participation
in DoD-funded training, Federal emergency response, or other Federal-funded
state missions all involve SDF members’ use of Federal equipment or expenditure
of Federal funds. Inaccurate and inconsistent interpretation of section 109(d),
title       32,     United       States      Code       inhibits      effective       coordination          and      support.


Emergency Preparedness/Disaster Response
State emergency preparedness training and disaster response within a state
normally involve activation of an emergency operations center (civilian) and, if
participation by the National Guard is required, a joint operations center (military).
In states that routinely include the SDF in state active-duty missions, SDF staff is
co-located with the National Guard in the military department joint operations
center. Federal funding support is routine and, in certain cases, Federal personnel
and equipment would be included and also co-located in the joint operations
center. In these instances, SDF personnel, while working alongside members
of the National Guard (in both Federal and state active-duty status) and
active-duty military members, would almost certainly use Federal equipment,
which is not prohibited by 32 U.S.C. §109(d).

New York and New Jersey SDF personnel supported the response to the attack
on September 11, 2001, and SDF personnel from eight states supported recovery
efforts as military volunteers within their states following Hurricane Katrina.
This SDF activity most likely entailed interaction with National Guard and DoD
personnel and use of National Guard and DoD resources. If so, it did not violate
the prohibitions of 32 U.S.C. §109(d).


	 19	
        National Guard Regulation 10-4, “Organization and Functions: National Guard Interactions with State Defense Forces,”
        November 2, 2011, paragraph 2-1.b and 2-3.b.


                                                                                                                               DODIG-2014-065 │ 13
Observation



                 The Emergency Management Assistance Compact provides form and structure
                 for interstate mutual aid in response to disasters, clarifying liability and
                 reimbursement                  requirements.             While        this      is     a      state-to-state          agreement,
                 implementation of the compact often includes a request for state National Guard
                 mutual assistance. National Guard involvement invariably requires the use of
                 Federal resources, with the expectation of cost reimbursement. The National
                 Guard Bureau coordinates the loans of resources documented in cooperative
                 agreements between the states. Again, misinterpretation of section 109(d),
                 title 32, United States Code hinders state executives from effectively integrating
                 National Guard and SDF personnel and resources.

                 A further subset of emergency response include situations when National Guard
                 units on state active duty are brought under Federal funding, while command
                 and control of the state National Guard remains with the governors.20 This would
                 probably occur during the Federal response to major disasters, in accordance
                 with the Stafford Act.21 Impacted states could use all available resources, including
                 SDF, for those that have them. In these situations, enforcing a clear distinction
                 between Federal and state efforts in order to ensure SDF do not improperly
                 receive Federal funds in violation of 32 U.S.C. §109(d) would be extremely
                 difficult without proper guidance and preparation.


                 DoD Funded Assistance
                 DoD could potentially provide support and services to SDF, providing the
                 assistance was incidental to military training.22 Support by units of the Armed
                 Forces must accomplish valid military training, and assistance by individuals must
                 involve tasks directly related to the specific military occupational specialty of the
                 member. However, this provision would allow U.S. Army units to include SDF
                 units and members in training events, providing the assistance did not “adversely
                 affect the quality of training,” or “significant[ly] increase the cost of the training,”
                 and the assistance did not include section 109(d), title 32, enumerated prohibitions.


                 DoD Use of State Defense Forces Volunteers
                 SDF members are unpaid volunteers whose ranks contain a significant number
                 of former and retired members of the Armed Forces, as well as accredited and



                 	 20	
                         Section 502(f), title 32, United States Code.
                 	21	
                         Section 5121-5207, title 42, United States Code.
                 	22	
                         Section 2012, title 10, United States Code, “Support and services for eligible organizations and activities outside the
                         Department of Defense.”



14 │ DODIG-2014-065
                                                                                                                                  Observation



state-licensed medical, legal, and other technical professionals. States have used,
or considered using, SDF members to directly support National Guard units
during training, pre-deployment, deployment, or post deployment activities.

In general, Federal agencies are prohibited from accepting voluntary services,
unless otherwise authorized by law.23 However, DoD could theoretically accept
gratuitous services from SDF members. Gratuitous services are those instances
in which the Federal Government receives the uncompensated services of an
individual not in Federal service, through an advance agreement or contract in
which the individual agrees to serve without compensation.24

Here again, misapplication of section 109(d), title 32, United States Code, adds
further fiscal constraints. An overly broad interpretation prevents SDF members
with professional certifications or other technical expertise from providing
even gratuitous services to the National Guard in all but purely state-funded
missions          using      state-purchased            equipment.         One      state      military       department
explained that guidance provided by the National Guard Bureau regarding this
language resulted in the state expending funds to contract for medical services
that were readily available from qualified volunteers.                               Access to these capabilities
required proper application of the law and sufficient guidance for their use.


State Use of Non-DoD Federal Funds
Legal limitations impacted the state use of SDF units, as well as individual
members.            Established in 1993, the Corporation for National Community Service
was responsible for distributing more than $250 million under the AmeriCorps
program,           including       grants       to    coordinate         and      support        homeland         security.

The office of the South Carolina Adjutant General applied for a $1 million Federal
AmeriCorps multi-year grant to enhance state capability in the areas of public
safety, public health, and emergency preparedness. To obtain and execute the grant,
the Adjutant General established an AmeriCorps organization using other state
personnel. In that DoD originally stated that SDF “would enable us to strengthen
a weak spot in our civil-defense program,”25 this example further supports the
need for DoD to provide proper guidance.


	23	
       Section 1342, title 31, United States Code and DoD Financial Management Regulation volume 14, chapter 2,
       paragraph 020101.B.
	24	
       30 Opinion Attorney General 51 (1913); 27 Comptroller Decision 131 (1920); 7 Comptroller General 810 (1928).
	25	
       Prepared statement of Hugh M. Milton II, Assistant Secretary of the Army, Manpower and Reserve Forces, to the Senate
       Committee on Armed Services, July 28, 1955.




                                                                                                                              DODIG-2014-065 │ 15
Observation



                 Recommendations, Management Comments, and
                 Our Response

                          Recommendation A
                          The Under Secretary of Defense for Policy, in coordination with
                          the Office of General Counsel, clarify the position of the Department
                          and characterize the level of coordination and interaction between
                          the DoD Components and State Defense Forces permissible
                          by statute.



                 Office of the Under Secretary of Defense for Policy
                 The    Under    Secretary     of   Defense   for   Policy   non-concurred   with   our
                 recommendation, stating that “a consistent definition of the permissible use of
                 DoD resources for SDFs is prescribed in 31 U.S.C. §1301(a), which provides:
                 ‘Appropriations shall be applied only to the objects for which the appropriations
                 were made except as otherwise provided by law.’”


                 Our Response
                 We considered the management comments partially responsive. The intent of our
                 recommendation was to alleviate observed inconsistency in the interpretation
                 and application of the language contained in section 109(d), title 32, United
                 States Code.    Alleviation of these inconsistencies might afford DoD Components,
                 primarily the National Guard, valuable opportunities to coordinate and interact
                 with SDF to better leverage their unique capabilities and enhancing mission
                 effectiveness of both entities.

                 While we still think that the Office of the Under Secretary of Defense for Policy
                 should clarify and communicate to State Adjutants General the mechanism by
                 which they can obtain a consistent interpretation of the permissible use of
                 Federal resources by SDF, we accept management’s analysis of the risk
                 associated with their proposed course of action.




16 │ DODIG-2014-065
                                                                                        Observation



B. DoD Policy and Guidance
The Office of the Secretary of Defense and DoD agencies lacked policy outlining
the sharing and loaning of DoD equipment or other guidance governing
DoD-SDF interaction. As of March 2014, there was no DoD policy addressing SDF.
Recent changes to DoD policy concerning the combined disaster response of
DoD, the National Guard, and other state actors did not include any discussion of
the role of SDF.


DoD Policy Directly Addressing State Defense Forces
In 1947, the Federal Government disbanded the war-time State Guard program
and ceased issuance of Federal equipment. Congress reauthorized peace-time
SDF in 1955.  The Total Force Policy concept renewed interest in SDF beginning in
1979. In 1981, the Historical Evaluation and Research Organization prepared a
study, at the request of the Assistant Secretary of Defense for Manpower, Reserve
Affairs, and Logistics, detailing the history of SDF.  In 1982, the Department of the
Army drafted “Policy and Guidance for State Defense Forces.” The policy was
never finalized.




  Figure 5. California SDF Small Arms Training Team
  Source: California SMR




                                                                                    DODIG-2014-065 │ 17
Observation



                 In 1987, the National Guard Bureau published National Guard Regulation 10-4,
                 “Organization and Functions:                     State Defense Forces, National Guard Bureau, and
                 State National Guard Interaction.” The regulation provided guidance concerning,
                 “[an] area in which the Department of the Army has traditionally been authorized
                 to provide assistance to the States in equipping, arming, and training their State
                 Defense Forces.” It also identified “the Chief, NGB [National Guard Bureau] as the
                 DoD executive agent and channel of communications between the States and the
                 Federal Government on all matters pertaining to State Defense Forces.”  This was the
                 first policy issued within DoD specifically addressing Federal interaction with SDF
                 since their re-authorization in 1955.

                 The Army previously exercised some authority over SDF. In 1997, the
                 Administrative Assistant to the Secretary of the Army issued Department of the
                 Army Memorandum 10-1, “Executive Agent Responsibilities Assigned to the
                 Secretary of the Army.” The memorandum assigned responsibility for SDF
                 within the Army to the Assistant Secretary of the Army for Manpower and
                 Reserve Affairs, and formally assigned the National Guard Bureau the
                 responsibility to “monitor and support” the SDF program.

                 As “Home Guards,” SDF historically wore military uniforms.                                       While section 771,
                 title 10, United States Code (10 U.S.C. §771 [1956]), prohibits unauthorized
                 wearing of, “the uniform, or a distinctive part of the uniform, of the Army, Navy,
                 Air Force, or Marine Corps…,” Army Regulation, since at least 1992, has authorized
                 SDF to wear a uniform similar to the Army uniform.

                                   State defense forces (SDF) may adopt the Army service and
                                   BDU [Battle Dress Uniform] uniforms, provided all service uniform
                                   buttons, cap devices, and other insignia differ significantly from
                                   that prescribed for wear by members of the U.S. Army. State
                                   insignia will not include “United States,” “U.S.,” “U.S. Army,” or the
                                   Great Seal of the United States. Personnel of the SDF may wear a
                                   State-designed SDF distinguishing badge or insignia centered on
                                   the left pocket flap. The red nametape or nameplate will include the
                                   full title of the SDF (for example, “Texas State Guard”). The utility
                                   uniforms will contain a State SDF tape in lieu of “U.S. Army” over
                                   the left breast pocket. States wishing to adopt the Army service
                                   and utility uniforms will register with the Chief, National
                                   Guard Bureau.26



                 	26	
                        Current language, as of the date of this report, from Army Regulation 670-1, “Wear and Appearance of Army Uniforms and
                        Insignia,” February 3, 2005, Rapid Action Revision (RAR), issue date May 11, 2012.




18 │ DODIG-2014-065
                                                                                                                                   Observation



The        Army        had      not     updated
the         uniform          regulation           to
reflect changes to Army combat
uniforms, choosing to issue All
Army           Action         memorandums
instead.         The      “wear-out”          date
for Battle Dress Uniforms was
April 30, 2008. Even though
the        National          Guard        Bureau
opined that they had no legal
objection to SDF wearing Army
combat uniforms, the regulation
does not explicitly authorize the
newer Army Combat Uniforms
                                                             Figure 6. California SDF Force Protection Detachment
for SDF use. Again, inconsistent                             Uniforms. Source: California SMR
interpretation has led some SDF
to discordant uniform results.                      Several SDF converted to the new Army Combat
Uniforms, using the “utility uniform” language as justification. Several SDF
requested permission from the Department of the Army and received approval
while others were denied permission to wear the Army Combat Uniform,
demonstrating inconsistent responses.

In 2006, the section of Army Memorandum 10-1 assuming executive agency for
SDF was invalidated following a review by the DoD Office of the Director of
Administration and Management.27                           On June 24, 2011, the Chief, National Guard
Bureau rescinded National Guard Regulation 10-4 which had not been updated
since 1987.

The National Guard Bureau re-issued Regulation 10-4, “Organization and Functions:
National Guard Interactions with State Defense Forces,” on November 2, 2011.
The regulation recognized that National Guard units and SDF may cooperate
during training, exercises, maneuvers, and domestic operations.                                           The Regulation
further restates the restrictions of section 109, title 32, United States Code, and
cites policy governing awards and the wear of uniforms.



	27	
       In 2005-2006 the DoD Office of the Director of Administration and Management conducted a review of the assignment of
       all “Executive Agents,” in accordance with DoD Directive 5101.1, “DoD Executive Agent,” May 9, 2003. The Directive states
       that, “Only the Secretary of Defense or the Deputy Secretary of Defense may designate a DoD Executive Agent and assign
       associated responsibilities, functions, and authorities within the Department of Defense.”




                                                                                                                               DODIG-2014-065 │ 19
Observation



                 The Regulation goes further, stating, “a State NG [National Guard] shall not spend
                 federal funds (including pay and allowances) or use federal equipment in activities
                 which have the primary purpose of training or otherwise supporting SDFs.”28
                 However, National Guard organizations have appeared to interpret this as a
                 prohibition on the expending of any federal funds or use of any federal equipment
                 in activities that support the SDF in any manner. Such a total prohibition is not
                 based on the provisions of the United States Code and has resulted in an
                 unwarranted differentiation of SDF from other State entities.

                 Finally, Army Doctrine Publication 3-28, “Defense Support of Civil Authorities,”
                 July 2012, the keystone Army doctrine for civil support, explicitly states that
                 Publication 3-28 does not apply to SDF that are not part of the National Guard.
                 Prior policy distinguished SDF from the National Guard and emphasized that,
                 although they may wear uniforms similar to the Army, they exist as separate legal
                 entities of the state and their authority, and activities are determined by the
                 adjutant general of their state. The earlier manual stated, “This can lead to
                 confusion, since, to civilians, they appear to be members of the Armed Forces.”29


                 DoD Policy Relevant to Operations With State Defense Forces
                 The 2012 National Defense Authorization Act codified the dual status option,
                 known as Dual Status Commander, providing statutory authority for one individual to
                 command Federal and state military forces simultaneously.  It allows National Guard
                 commanders in state status (“Title 32”) to be ordered to active duty (“Title 10”),
                 while retaining their state commission. Conversely, active component officers
                 (“Title 10”) can accept a commission in a state National Guard while retaining
                 their Federal commission.

                 Consequently, in states that authorize and attribute to their SDF the same rights,
                 privileges, and responsibilities as the state National Guard, officers of that state
                 National Guard could exercise command and control over SDF units and personnel
                 on state active duty. In some cases, SDF personnel could be integrated into the
                 state military Joint Operations Center.




                 	28	
                         National Guard Regulation 10-4, “Organization and Functions: National Guard Interaction with State Defense Forces,”
                         November 2, 2011, paragraph 2-1.b.
                 	 29	
                         Army Field Manual 3-28, “Civil Support Operations,” August 2010, section 1-33.




20 │ DODIG-2014-065
                                                                                                                                 Observation



DoD Directive 5101.77, “National Guard Bureau,” May 21, 2008, named the
National Guard Bureau as a joint activity of DoD and the Chief, National Guard
Bureau, as a principal advisor to the Secretary of Defense on matters involving
non-federalized National Guard forces.30  The duties assigned to the Chief illustrate
the importance of the National Guard to Federal missions and includes:

                   Facilitating and coordinating with other Federal agencies, the
                   Adjutants General of the States, the United States Joint Forces
                   Command (USJFCOM), USNORTHCOM [United States Northern
                   Command], U.S. Southern Command (USSOUTHCOM), and U.S. Pacific
                   Command (USPACOM) the use of National Guard personnel and
                   resources for operations conducted under [Title 32, United States
                   Code] or in support of State missions.


While defining the National Guard Bureau as the channel of communications
on all matters pertaining to the National Guard between the several states, the
directive does not discuss interaction with SDF.

Elevation of the National Guard Bureau from a “joint bureau of the Army and Air Force,”
to a “joint activity of DoD,” removed the Army’s authority to task the National
Guard Bureau.  This severed the historical and remaining informal linkage between
the Department of the Army and SDF that ran through the National Guard Bureau.

DoD Directive 5105.83, “National Guard Joint Force Headquarters – State (NG
JFHQs‑State),” January 5, 2011, established Joint Force Headquarters in each
state, composed of the National Guard leadership, to support Federal missions
and state missions, when appropriate. Each headquarters was organized to
conduct state (Title 32 – under the command of the governor) or Federal (Title 10 –
under Federal command) missions, and to render mutual support with Federal
forces operating within that state.  One specified task assigned to the headquarters
was to “coordinate planning, training, and execution of NG homeland defense,
National Special Security Events, defense support of civil authorities, and other
domestic emergency missions within the United States.” However, the directive also
explicitly excludes SDF, stating that “Nothing in this Directive shall be construed as
applicable to the defense forces of a State.”




	 30	
        The DoD Directive implemented section 10501, title 10, United States Code, which was amended by Public Law 110–181
        in 2008.




                                                                                                                             DODIG-2014-065 │ 21
Observation



                 As part of this review, the assessment team interviewed representatives from
                 U.S. Northern Command, the Office of the Assistant Secretary of Defense for
                 Homeland Defense, the Office of the Assistant Secretary of Defense for Reserve
                 Affairs,        and     the     National       Guard       Bureau.       Their      views       were      consistent.

                               •	 U.S. Northern Command staff stated that SDF were state entities,
                                   lacked national military standards, qualifications, Federal background
                                   checks, and the means to verify readiness. They were not considered
                                   or included for military planning.

                               •	 The position of the representatives from the Office of the Assistant
                                   Secretary of Defense for Homeland Defense and Americas’ Security
                                   Affairs was that DoD has no relationship with, or jurisdiction
                                   over, the SDF, as they are state entities with no legal nexus to DoD.

                               •	 Representatives from the Office of the Assistant Secretary of Defense
                                   for Reserve Affairs stated that the law authorizing SDF places sole
                                   responsibility with the state; Federal funds cannot be used for SDF.

                               •	 In 2011, the Chief, National Guard Bureau said he considered SDF to be
                                   state agencies and that the nature and extent of interaction and
                                   support between the National Guard and SDF would be governed by
                                   state cooperative agreements.

                 In addition, in February 2011, the Military Departments, Combatant Commands,
                 and National Guard Bureau reported conducting no activities in support of SDF
                 during fiscal years 2000-2010, a period that included Operations Iraqi Freedom
                 and Enduring Freedom and the response to Hurricane Katrina. The Assistant
                 Secretary of Defense for Homeland Defense and Americas’ Security Affairs also
                 reported that the states had not requested DoD support for SDF during the same
                 10-year period.31  Nevertheless, most states considered their SDF as part of their
                 military establishment, and when used for other than pure state missions, the
                 SDF/DoD interaction lacked adequate guidance.




                 	31	
                        Draft Report to the Senate and House Armed Services Committees on Homeland Defense Forces for Homeland Defense
                        and Homeland Security Mission dated November, 2010 as requested by Committee on Armed Services, House of
                        Representatives Report 108-491 per H.R. 4200, National Defense Authorization Act for Fiscal Year 2010.




22 │ DODIG-2014-065
                                                                                   Observation



Recommendations, Management Comments, and
Our Response

         Recommendation B
         Chief, National Guard Bureau, modify National Guard Bureau
         Regulation 10-4, “Organization and Functions: National Guard
         Interaction with State Defense Forces,” to state that State Defense
         Forces be considered as any other State agency, with respect to
         State Defense Forces preparation for and participation in Federal
         responses, and the related use of Federal equipment, excepting
         the specific restrictions of section 109(d), title 32, United
         States Code.




Office of the Under Secretary of Defense for Policy
The Under Secretary of Defense for Policy non-concurred with our original
recommendation to develop and publish guidance for DoD Components governing
interactions with SDF.      Management stated that SDF were “treated like other
State government entities that DoD may interact with, and there are provisions
in force that address DoD Components’ interactions with State entities, citing
DoD Directive 1100.20, “Support and Services for Eligible Organizations and
Activities Outside the Department of Defense,” as an example.


Our Response
The comments from the Under Secretary of Defense for Policy were partially
responsive. We met with the Deputy Under Secretary of Defense for Homeland
Defense Strategy and Force Planning, who asserted that additional DoD policy
was not necessary. However, management agreed that, while SDF were unique
in several ways, interaction with DoD Components should be at least on-par
with other State agencies. In response, we have modified and redirected the
recommendation to the Chief, National Guard Bureau, recommending that the
Bureau change the regulation governing National Guard / SDF interaction to state
that SDF be considered as any other State entity, excepting those specific
restrictions stated in section 109(d), title 32, United States Code.




                                                                               DODIG-2014-065 │ 23
                                                                                                                                        Impacts




Impacts
Missed Opportunities and Efficiencies
The lack of interaction and misunderstandings between SDF and DoD was
potentially preventing state executives from effectively including SDF capabilities
and expertise in mission planning and execution. In addition to self-reported
capabilities, diverse authors concluded that SDF are an untapped asset with the
potential for significant cost-effective contributions to the defense of the homeland.

Various authors have highlighted the potential for SDF to provide support. For
example, a National Defense University article, “Volunteer Military Organizations –
An Overlooked Asset,”32 lists pipeline and harbor security missions for the Alaska
SDF.  It also describes the month-long Arizona border surveillance provided by
a volunteer civic organization as an example of a worthy mission for a volunteer
military organization.

Also, a 2010 report by The Heritage Foundation stated that 10 of 13 SDF surveyed
had a designated role in state or local emergency operations centers and concluded
that they “continue to provide critical manpower at minimal cost.”33                                              The 2010
report stated that only 4 of the 13 responding SDFs indicated that they pay their
members when on duty.




   Figure 7. A California SDF Soldier Instructs a National Guard Soldier.
   Source: California State Military Reserve


	32	
       The National Defense University – Joint Forces Quarterly, issue 43, 4th quarter 2006.
	33	
       “The 21st-Century Militia - State Defense Forces and Homeland Security,” James Jay Carafano, Ph.D., and Jessica Zuckerman,
       October 8, 2010.



                                                                                                                               DODIG-2014-065 │ 25
Impacts



                 SDF have contributed to state responses during recent major events.

                               •	 The New York Guard (SDF) reported that during the response to the
                                   September 11, 2001 attacks, the 244th Medical Detachment of the New York
                                   Guard provided medical services not available from other organizations.

                               •	 The governors of New York and New Jersey activated the New York State
                                   Guard, New York Naval Militia, and New Jersey Naval Militia to assist
                                   in response, recovery, and critical infrastructure security after the attack
                                   on September 11, 2001.

                               •	 An estimated 2,274 SDF personnel from 8 states participated in recovery
                                   efforts after Hurricane Katrina, assisting directly with recovery efforts or
                                   back-filling deployed state National Guard units.34

                 Nevertheless, systemic challenges hindered additional interaction between DoD and
                 SDF. Certification, performance, and proficiency standards for SDF personnel vary
                 by state and the states bear all associated costs for training. As discussed, DoD can,
                 under certain circumstances, provide training and other support, but there was
                 no statutory mechanism for states to reimburse DoD for expenditures.

                 In a 2005 report on forces for Homeland Defense and Homeland Security
                 Missions, the Assistant Secretary of Defense for Homeland Defense wrote that
                 “The         Department          [would]       consider        supporting        governors         who       elect        to
                 employ State Defense Forces with surplus equipment and training pursuant
                 to appropriately vetted requests through their adjutants general and the
                 NGB [National Guard Bureau].”35 The report further stated that SDF assistance
                 could potentially reduce the demand for active-duty or National Guard forces
                 during disasters and other catastrophic incidents. Further, such assistance might
                 be particularly useful if other homeland security forces were unavailable due to
                 deployment out of the state or the scale of the event.

                 However, as previously noted, DoD reported that the Military Departments, the
                 Combatant Commands, and the National Guard Bureau had conducted no activities
                 in support of SDF, and provided no defense support to civil authorities’ activities




                 	34	
                        IBID.
                 	35	
                        “Homeland Defense Forces for Homeland Defense and Homeland Security Mission,” November 5, 2006, delivered to the
                        Senate and House Armed Services Committees pursuant to House of Representatives Report 108-491, National Defense
                        Authorization Act for Fiscal Year 2005.




26 │ DODIG-2014-065
                                                                                                                                 Impacts



in support of the training and equipping of SDF during fiscal years 2000-2010.36
The report also stated that states had not requested DoD support for SDF activities,
and that there was no statutory mechanism to allow DoD to retain payments
from the states.

We found no objective cost-benefit analysis addressing the use of SDF in support
of DoD missions that reviewed savings or efficiencies resulting from actual or
potential contributions compared to tangible and intangible costs and liabilities.
However, in 2011, the Chief, National Guard Bureau acknowledged that SDF
might theoretically provide some benefit to DoD, but emphasized the need to
first have specific DoD guidance and policy defining the role of the National
Guard Bureau with respect to SDF.


State Defense Forces Support to the National Guard
In response to a request for information, SDF commanders reported mission sets
ranging from ceremonial tasks to supporting state National Guard forces with
disaster recovery, shelter operations, and search and rescue.                                 In addition to the
three specialized missions reported earlier (see page 6), the California SDF reported
maintaining specialized units trained to state law enforcement officer standards
which provide volunteer armed force protection to National Guard assets.

Extended overseas contingencies since 2001 limited the availability of National
Guard units to meet state requirements.                              Emergency management assistance
compacts and other cooperative agreements allow states to support one another
during emergencies and provide the legal framework for closing gaps in response
capability by the National Guard as a whole.                              Several state statutes anticipate
assumption of National Guard missions by SDF upon mobilization or under
conditions designated by the proper state authority.                                    In those states with
untrained, unarmed SDF, it is unclear if they would be capable of effectively
assuming National Guard missions upon mobilization.

Finally, age and fitness standards vary widely among SDF.                                 Some states have no
physical fitness or health screening standards, and others allow SDF to recruit
members up to age 70, with service waivers beyond. Section 311, title 10, United
States Code defines the militia as individuals between 17 and 45 years of age.


	36	
       Draft Report to the Senate and House Armed Services Committees on Homeland Defense Forces for Homeland Defense
       and Homeland Security Mission dated November, 2010 as requested by Committee on Armed Services, House of
       Representatives Report 108-491 per H.R. 4200, National Defense Authorization Act for Fiscal Year 2010.




                                                                                                                        DODIG-2014-065 │ 27
Impacts



                 Admittance to and service in the Army requires health screening and continued
                 physical fitness, standards similarly applied to the National Guard. These
                 discrepancies between SDF and the rest of the state military establishment
                 negatively impact SDF interaction, if any, with the Army and the National Guard.

                 Representatives from U.S. Northern Command opined that integrating SDF into
                 combatant     command    planning   and   operations   was   untenable,   given   the
                 ambiguity surrounding their authority to interact with Federal military entities
                 and the National Guard. They further noted the inability to verify SDF readiness
                 (unit and individual standards and qualifications) and execute Federal personnel
                 security reviews.


                 Fiscal Law and Regulatory Guidance
                 State use of SDF, as part of their state military establishment, requires interaction
                 with DoD for many missions.     For example, during emergency response exercises
                 or preparedness training, SDF units or individuals, as part of their state military
                 establishment, will work alongside other Federal and state military and civilian
                 participants. Access to DoD information technology systems required use of the
                 Common Access Card, provided to Federal military, civilian, and contractor
                 employees. State employees also qualified for issuance of a card, while SDF
                 did not. Officials from California reported that SDF members were denied
                 Common Access Cards, even though they were given status as state employees.
                 This challenge to basic access generated the conditions for a work-around of
                 questionable legality.

                 Challenges associated with participation in training are compounded during
                 response to an actual crisis. Total lack of authority for SDF to assume any control
                 over Federal resources or perform National Guard missions using any Federal
                 resources could cause significant conflict and confusion among Federal and state
                 agencies. Proper SDF participation required active measures to ensure the
                 state government provided all per diem, if authorized, and indemnification for the
                 Federal Government from liability, if required. Workable procedures are required
                 prior to an emergency to ensure laws and regulations are properly followed
                 during a crisis.




28 │ DODIG-2014-065
                                                                                                                  Appendixes



Conclusion
There are finite government resources available to meet internal national
security challenges. Federal agencies must work effectively and efficiently to
execute          homeland           security,       homeland      defense,   and   civil   support   missions.
Lack of attention and guidance from senior officials in DoD has led to a disjointed
approach to the integration and use by the states of SDF in support of missions
involving Federal entities or resources. Using SDF to further the DoD mission
constitutes an opportunity. However, such use will involve clearly defined
access to Federal resources as provided to military auxiliaries37 and other
Federally-sponsored, state-implemented programs.




	37	
       See Appendix F for a discussion of military auxiliaries.




                                                                                                             DODIG-2014-065 │ 29
                                                                                                         Appendixes




Appendix A
History of State Defense Forces
Federal support for SDF has waxed and waned since their initial conception in
1916.         Since 1955, there has been a gradual decoupling of DoD from SDF, even
though SDF have received increased attention after the attacks of September 11, 2001.


The World Wars
The National Guard was mobilized and deployed overseas in large numbers for the
first time in support of World War I.                       As a result of the deployment of National
Guard units, the states identified a need for additional troops to handle state‑specific
security missions. In response, Congress authorized U.S. Guards for internal
security in states,38 and the states created state guards, home guards, and, in some
cases, county guards.  Most state entities were disbanded after the end of the war
and the return of National Guard units.

In 1940, Congress passed legislation authorizing states to have State Guards in
peacetime in anticipation of the mobilization of the National Guard for World War II.
During the war, virtually every state established a State Guard, and total enrollment
numbered over 168,000 members. While not under direct command of the
War Department, the Federal military establishment administered and coordinated
State Guard activities. In December 1940, the Secretary of War designated the
National Guard Bureau as the administrative agency for State Guard units,
with responsibility for coordination between state military authorities and
Commanding Generals of Corps areas (later Service Commands). The National
Guard Bureau helped define the role of state military forces in successive
emergency plans of the War Department, and then monitored the local
coordination of state and Federal missions.

The Commanding General of Army Service Forces assumed responsibility for
the formulation of War Department policies toward State Defense Forces.
The Service Commands assisted state military authorities with State Guard training
and development, furnishing part-time instructors and providing positions for
State Guard officers at Service Command schools.




	38	
       Section 61 (b) of the National Defense Act of 1916




                                                                                                    DODIG-2014-065 │ 31
Appendixes



                 The War Department maintained positive control over State Guard units
                 through command inspections. While states organized and formed the unit,
                 Federal inspection was a requirement for access to Federal property and other
                 support.           Units that did not meet established Federal standards could be denied
                 support and disbanded.


                 Post World War II
                 Effective July 1947, Congress withdrew authority for states to maintain troops in
                 peacetime. The states disbanded all State Guard units by the end of 1947.

                 In January 1949, the National Guard Bureau, in conjunction with the Office of
                 Provost Marshall General, prepared a preliminary study on the use of state
                 military forces in internal security. In April of the following year, the Office of the
                 Army Chief of Operations (G-3) conducted a study on State Guards and
                 internal security. In response to the Army study, the National Guard Bureau
                 recommended that the Department of the Army encourage the formation of both
                 state police and State Guard units, particularly military police units.  The Department
                 of the Army suggested limiting their role to cooperative planning and liaison
                 with the states, but agreed to furnish arms, ammunition, clothing, and equipment,
                 as available, providing such assistance did not interfere with the requirements
                 of the Army.

                 In 1950, following the outbreak of hostilities on the Korean peninsula, Congress
                 again authorized states to maintain troops, in addition to the National Guard, for
                 a period of 2 years. In May 1951, the National Security Council and the Defense
                 Department stated there was a need for non-military civil defense groups as
                 wartime            reserves         under        the     supervision           of   the   Federal   Civil   Defense
                 Administration. Federal authority for state troops expired in September 1952 and
                 most states disbanded their State Guard cadres.

                 In 1955, Congress authorized SDF in their current form. “In addition to its National
                 Guard, if any, a State, the Commonwealth of Puerto Rico, the District of Columbia,
                 Guam, or the Virgin Islands may, as provided by its laws, organize and maintain
                 defense forces.”39




                 	 39	
                         “Maintenance of other Troops,” section 109, title 32, United States Code.




32 │ DODIG-2014-065
                                                                                                                                Appendixes



In 1969, the Gates Commission concluded that the most effective solution to end
universal conscription would be to create an all-volunteer force. However,
development of an all-volunteer military force depended heavily on the Total
Force          Concept,        which        required        integration        of     the     Active       and      Reserve
components. Dependence of the Total Force Concept on Reserve Component
forces increased the likelihood that states would be left without their National
Guard troops if they were deployed overseas.40

The creation and expansion of SDF throughout the United States remained slow
throughout the Vietnam War. In February 1979, the House Armed Services
Committee received testimony that 13 states and Puerto Rico maintained an
SDF in addition to their National Guard, but the roles, organization, equipment,
and training were not standardized. Soon after, the Assistant Secretary of
Defense for Reserve Affairs undertook a study of the history of Home Defense
Forces.           The realization of the all-volunteer force led many states to revive
their SDF during the 1980s.

In 1981, the Adjutant General of the state of Washington was appointed by
the Chief, National Guard Bureau to chair a committee on SDF and became,
in practice, the National Guard Bureau spokesman for its position on SDF.
In 1982, the National Guard Bureau viewed the SDF as an organization that
would respond to natural disasters, civil disturbances and ensure continuation
of vital public services, civil defense, and other specialized missions that might
arise after mobilization of the National Guard. The National Guard Bureau
stated that they believed the Federal Government should equip SDF, while
National Guard technicians planned, organized, and coordinated SDF activities
and maintained the equipment. The National Guard Bureau proposal included
reimbursement by the Federal Government to the states for Federal or state
missions performed by the SDF.

In 1987, the National Guard Bureau published National Guard Regulation 10‑4,
“Organization and Functions: State Defense Forces, National Guard Bureau,
and State National Guard Interaction.” Between publication of the regulation
and the terrorist attacks of September 2001, the National Guard was not often
deployed for Federal missions. During that time, the National Guard Bureau
maintained that SDF be established as cadre organizations.41

	 40	
        James Jay Carafano, “The Army Reserves and the Abrams Doctrine: Unfulfilled Promise, Uncertain Future,” Heritage
        Foundation Lecture No. 869
	41	
        National Guard Regulation 10-4, paragraph 6.b.




                                                                                                                           DODIG-2014-065 │ 33
Appendixes



                 Post-9/11
                 In January 2001, the U.S. Commission on National Security/21st Century suggested
                 the primary mission of the National Guard become homeland security.42 The
                 attack on September 11, 2001, dramatically changed the focus of the National
                 Guard mission from domestic to overseas operations.

                 At the same time, significant and comprehensive institutional and procedural
                 changes          throughout          the     executive        branch,       including        the     creation        of   the
                 Department of Homeland Security and establishment of the Assistant Secretary
                 of Defense for Homeland Defense and U.S. Northern Command, increased
                 Federal participation to formerly state-centric responses.

                 The        duration         and      frequency         of    National        Guard       deployments            supporting
                 Operation Enduring Freedom (Afghanistan) and Operation Iraqi Freedom shifted
                 the focus of the National Guard mission from a strategic reserve to part of the
                 operational forces. SDF were revitalized and selectively activated to assist in
                 homeland             security,       emergency           response,         disaster        recovery,        and      critical
                 infrastructure protection to help fulfill state missions of deployed National
                 Guard forces.




                 	42	
                        U.S. Commission on National Security/21st Century, “Road Map for National Security: Imperative for Change,”
                        February 15, 2001, also known as the Hart-Rudman Commission.




34 │ DODIG-2014-065
                                                                                                           Appendixes




      Appendix B
      State Defense Forces Information Summary
      Nineteen of 23 SDF Commanders and 18 state Adjutants General replied to the
      structured questionnaire. Specific information supporting report conclusions is
      summarized below.

      Table 1. Structured Questionnaire Responses from State Adjutants General and State
      Defense Force Commanders

                                    State      Number                               Considered
                        Militia    Code of                            Considered
          STATE                                   of      Uniform*                   "Lawful       Armed
                        Status     Military                           "Soldiers"
                                              Personnel                            Belligerents"
                                   Justice
  1   Alabama          Organized      X          440        BDU            N             N            N
  2   Alaska           Organized      X          106        BDU         N/A**           N/A           N
                                                            ACU,
  3   California       Organized      X          950                       Y             Y            Y
                                                            Other
  4   Connecticut      Organized      X           10        BDU            Y             N            Y
                                                            ACU,
  5   Georgia          Organized      X          800                       Y             Y            N
                                                            Other
  6   Indiana          Organized      X          279        ACU            Y             Y            Y
                                                            ACU,
  7   Maryland         Organized      X          437                       Y             Y            N
                                                            Other
  8   Massachusetts    Organized      X           10        ACU            Y             N            N
  9   Mississippi      Organized      X          725        BDU            Y             Y            N
                                                            ACU,
 10   New Mexico       Organized      X           70                       N             N            N
                                                            Other
                                                            ACU,
 11   New York         Organized      X          616        BDU,           Y             Y            N
                                                            Other
 12   Ohio             Organized      X          286        BDU            N             N            N
 13   Oregon           Organized      X          108        BDU            Y             N            N
 14   Puerto Rico      Organized      X        1608         ACU            Y             Y            N
                                                            BDU,
 15   South Carolina   Organized      X        1027                        Y             N            Y
                                                            Other
 16   Tennessee          Other                   352        BDU            N             N            N
                                                            ACU,
 17   Texas            Organized      X        2062         BDU,           Y             N            N
                                                            Other
 18   Virginia         Organized      X        1066         BDU            Y             Y            N
                                                            ACU,
 19   Washington       Organized      X           53                       Y             N            N
                                                            Other

Notes:	 * Uniform abbreviations stand for Battle Dress Uniform (BDU) and Army Combat Uniform (ACU).
	       ** Information not provided (not available)
                                                                                                      DODIG-2014-065 │ 35
Appendixes



                 Respondent Summary:

                        •	 Eighteen of 19 considered their SDF as part of the organized militia.

                        •	 The same 18 of 19 subject SDF to the State Code of Military Justice.

                        •	 The 19 reported an aggregate total of just under 11,000 members on
                          the rolls.

                        •	 Eight reported using the authorized but obsolete BDU uniforms
                          exclusively, while the remaining 11 reported using a combination of
                          BDU, ACU, and other uniforms.

                        •	 Fourteen of 18 recognized SDF members as “soldiers” in state
                          military service.

                        •	 Eight of 18 recognized SDF members as “lawful belligerents” under the
                          rules of war in accordance with Army Field Manual 27-10, “The Law of
                          Land Warfare.”

                        •	 Only 4 of 19 authorized their SDF to be armed or provided
                          weapons training.




36 │ DODIG-2014-065
                                                     Appendixes




Appendix C
State Defense Forces Structured Questionnaire
for State Adjutants General




                                                DODIG-2014-065 │ 37
Appendixes



                 State Defense Forces Structured Questionnaire for
                 State Adjutants General (cont’d)
                            Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000



                                          STATE DEFENSE FORCES - REQUEST FOR INFORMATION
                                             (Version for State Offices of Adjutants General)
                      We request the State Adjutant General (TAG) or designee complete this questionnaire. Please check the appropriate boxes and type
                      narrative answers in the expandable text box spaces provided. Submit supporting documentation such as copies of state laws,
                      regulations, applicable policy and standard operating procedures supplementing your responses as necessary.

                      Return the completed questionnaire, along with any supporting documentation, via electronic mail to SDF@dodig.mil NO LATER
                      THAN February 15, 2011. Send any questions that arise during completion of the questionnaire to the same electronic mail address.

                      We prefer supporting documentation in electronic format, but regular mail is acceptable. Address mail to:

                        DOD Inspector General
                        ATTN: Mr. Gregory D. Sampson.
                        400 Army-Navy Drive, Suite 814
                        Arlington, VA 22202

                      NAME OF STATE



                      OFFICIAL STATE TITLE OF TAG


                      TAG POC FOR SURVEY RESPONSES:


                      Rank/Title



                      Name



                      Address



                      Phone



                      Email




                                                                      Survey on State Defense Forces                                        Page 1 of 4




38 │ DODIG-2014-065
                                                                                                                                             Appendixes



State Defense Forces Structured Questionnaire for
State Adjutants General (cont’d)
      Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000




   1. Does the state Military Department recognize members of the State Defense Force (SDF) as "Soldiers" in the military service
   of their state?

       Yes (explain why)

       No (explain why not)




   2. Does the state Military Department recognize members of the SDF as lawful belligerents under the rules of war in
   accordance with Army Field Manual 27-10, "The Law of Land Warfare"?

       Yes (explain why)

       No (explain why not)




   3. Has the state Military Department and /or other state government entity, within the last ten years, conducted a formal and
   documented study and/or gap analysis of SDF mission and tasks?

       Yes (provide an executive summary of the report)

       No




                                                  Survey on State Defense Forces                                          Page 2 of 4




                                                                                                                                        DODIG-2014-065 │ 39
Appendixes



                 State Defense Forces Structured Questionnaire for
                 State Adjutants General (cont’d)
                          Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000




                      4. Does the state Military Department authorize and approve of the arming and/or training of SDF members in the use of
                      weapons?

                          Yes (describe weapons and training)

                          No (explain why not)




                      5. Do assigned SDF tasks fill a state military mission gap that is otherwise not available from existing non-military (civilian)
                      organizations such as search and rescue, Red Cross, auxiliary/reserve (unarmed) police, service contractors, Civil Air Patrol,
                      FEMA Civil Emergency Response Teams, Medical Reserve Corps, etc?


                          Yes (explain how)




                          No

                      6. Does the state Military Department support and approve of the SDF receiving direct or in-kind mission-related resources
                      from the Department of Defense (DoD) to support state security tasks?


                          Yes (explain why)

                          No (explain why not)




                                                                       Survey on State Defense Forces                                              Page 3 of 4




40 │ DODIG-2014-065
                                                                                                                                           Appendixes



State Defense Forces Structured Questionnaire for
State Adjutants General (cont’d)
      Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000


   7. Does the state Military Department support and approve of the SDF receiving direct or in-kind mission-related resources
   from Federal entities other than DoD to support state security tasks?


       Yes

       No (explain why)




   8. What positive interaction has occurred, if any, between the TAG and the NGB/DoD regarding resourcing, training, and other
   support for SDF mission(s)?




   9. What impediments have been encountered or perceived, if any, between the TAG and the NGB/DoD regarding resourcing,
   training, and other support for SDF mission(s)?




   10. The DODIG welcomes any other information not otherwise requested on this survey that the TAG may want to
   communicate to us. You may provide additional information on this form or in separate correspondence.




                                                 Survey on State Defense Forces                                         Page 4 of 4




                                                                                                                                      DODIG-2014-065 │ 41
Appendixes




                 Appendix D
                 State Defense Forces Structured Questionnaire for
                 State Defense Force Commanders




42 │ DODIG-2014-065
                                                                                                                                               Appendixes



State Defense Forces Structured Questionnaire for
State Defense Force Commanders (cont’d)
         Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000


                      STATE DEFENSE FORCES - REQUEST FOR INFORMATION
                         (Version for State Defense Force Commanders)
  We request the State Defense Force Commander or designee complete this questionnaire. Please check the appropriate boxes
  and supply narrative answers in the expandable text box spaces provided. Submit supporting documentation such as copies of
  state laws, regulations, applicable policy and standard operating procedures supplementing your responses as necessary.

  Return the completed questionnaire, along with any supporting documentation, via electronic mail to SDF@dodig.mil NO LATER
  THAN February 15, 2011. Send any questions that arise during completion of the questionnaire to the same electronic mail
  address.

  We prefer supporting documentation in electronic format, however, if necessary, regular mail is acceptable. Address mail to :

    DOD Inspector General
    ATTN: Mr. Gregory D. Sampson
    400 Army Navy Drive, Suite 814
    Arlington, VA 22202


  NAME OF STATE:



  OFFICIAL NAME OF SDF:


  SDF POC FOR SURVEY/RESPONSES:



  Rank/Title:



  Name:



  Address:



  Phone:



  E-mail:




                                           Request for Information - State Defense Forces                                  Page 1 of 13




                                                                                                                                          DODIG-2014-065 │ 43
Appendixes



                 State Defense Forces Structured Questionnaire for
                 State Defense Force Commanders (cont’d)
                             Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

                      SECTION I: AUTHORITIES


                      1. Military Status

                        a. According to your state's law, is your SDF included in the organized militia, unorganized militia, or other status?

                            Organized

                            Unorganized

                            Other ( please specify):




                        b. Are SDF officers appointed pursuant to Article 1, Section 8, Clause 16 of the United States Constitution per the authority
                        reserved to the States in the appointment of Officers of the Militia?
                            Yes
                            No (explain why)




                        c. Under state law, do enlisted members and officers of the SDF have the same similar legal status, privileges, and /or
                        immunities as members of the state National Guard (in state status) when called to State Active Duty (SAD) or in any other
                        status?


                            Yes

                            No (describe the difference):




                      2. Military Justice, Liability and Other

                        a. Are SDF units/personnel allowed by law to deploy and operate outside the geographical jurisdiction of the state when
                        ordered by proper authority?

                            Yes

                            No


                        b. Are SDF personnel subject to the state's Code of Military Justice (the state equivalent to Title 10, United States Code, Sections
                        801-946, Uniform Code of Military Justice, while in State Active Duty (SAD), Inactive Duty for Training (IDT) or any other status?

                            Yes (describe which statuses):




                            No



                                                                 Request for Information - State Defense Forces                                    Page 2 of 13




44 │ DODIG-2014-065
                                                                                                                                                  Appendixes



State Defense Forces Structured Questionnaire for
State Defense Force Commanders (cont’d)
        Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

   c. Are there any substantive differences between the SDF and the NG regarding the legal application of the state Code of
   Military Justice?

       Yes (describe the differences):




       No


   d. Are there any legal (sovereign) immunities (tort claims, etc.) that are applicable to SDF personnel when operating under SAD,
   IDT, or other approved statuses?

       Yes (specify):




       No


   e. Are there any statutory re-employment protections and/or rights available to SDF personnel called to SAD under state law?

       Yes (specify):




       No


   f. What privileges, entitlements, benefits, or other unique rights, not previously covered, are afforded to personnel for their
   service in the SDF?




  SECTION II: ADMINISTRATION


  1. Personnel Strength

   a. What is your current strength for the following categories of personnel:



                                     State Active Duty


                                     Inactive Duty Training/Drill Status




                                            Request for Information - State Defense Forces                                    Page 3 of 13




                                                                                                                                             DODIG-2014-065 │ 45
Appendixes



                 State Defense Forces Structured Questionnaire for
                 State Defense Force Commanders (cont’d)
                            Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

                       b. Provide a copy of a current Table of Organization and Equipment (TO&E), Table of Organization (T/O) or Table of Distribution
                       and Allowance (TDA) if available. To summarize, list the number of personnel assigned to the following grades:


                        E-1 to E-4                                                        O-1 to O-3


                        E-5 to E-9                                                        O-4 to O-6


                        W-1 to W-5                                                        O-7 +


                       c. Indicate the total number of current SDF members that have prior service in the U. S. Armed Forces (include service in the
                       Reserves and National Guard).




                       d. If reported to your respective Adjutant General, indicate the total dollar value of man-hours provided to the state and local
                       communities during Fiscal Year 2010 in the performance of SAD missions, IDT activities and authorized (other) non-military
                       community assistance missions. If available, list the value separately for each category.

                        TOTAL          $                                                  SAD             $


                                                                                          IDT             $


                                                                                          OTHER           $


                       e. Describe the number and capacity of SDF personnel directly augmenting the State Military Department/National Guard.
                       Identify the offices, programs and units being augmented.




                      2. Enlistment/Appointment and Retention Qualifications

                       a. Describe medical, physical fitness, and height/weight control qualifications for enlistment, appointment, and retention in the
                       SDF.




                                                               Request for Information - State Defense Forces                                    Page 4 of 13




46 │ DODIG-2014-065
                                                                                                                                                  Appendixes



State Defense Forces Structured Questionnaire for
State Defense Force Commanders (cont’d)
        Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

   b. If qualifications are listed in 2 a. above, describe the process used to verify that current personnel and prospective applicants
   meet the standards, and in the case of height/weight control, what remedies/corrective actions are available should they fail to
   meet the standard.




   c. Describe any background checks, personnel security, and moral character qualification requirements for enlistment/
   appointment and retention. Also, describe the process used for verifying that current personnel and prospective applicants
   meet these requirements.




  3. Uniforms
     a. What uniform(s) are currently used by SDF personnel?

                 ACU (Army Combat Uniform)

                 BDU (Battle Dress Uniform)

                  Other(please specify)

                 None (skip to Section III)

     b. What distinctive modifications have been applied to the uniforms used, if any?




     c. Have the uniforms as described in question 3 been registered with the Chief, National Guard Bureau, in accordance with
     National Guard Regulation 10-4, Section 12, paragraph 1?

          Yes

          No (explain why)




                                              Request for Information - State Defense Forces                                  Page 5 of 13




                                                                                                                                             DODIG-2014-065 │ 47
Appendixes



                 State Defense Forces Structured Questionnaire for
                 State Defense Force Commanders (cont’d)
                             Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

                        d. Did another DoD component and/or military Service approve the uniforms selected in question 3 a?

                            Yes (explain how approval was obtained)




                            No



                      SECTION III: OPERATIONS

                      1. Mission

                        a. List the mission(s) of the SDF in your state. Also, identify whether the mission is statutory and /or assigned, and the statutory
                        or assigning authority.




                        b. Has the SDF developed (or been assigned) a list of associated tasks and sub-tasks necessary to meet the SDF mission? This
                        would be similar to the U.S. Army's Mission Essential Task List (METL). If so, list each task and sub-tasks (if applicable).




                      2. Capabilities and Readiness

                        a. Describe the SDF's capabilities in narrative form for functional areas identified below in fewer than 300 words for each area.
                        List required functional qualifications for personnel assigned such as state/national licenses, academic degrees, state and/or
                        Federal military service schools, and national Guard-provided training, endorsements, etc.

                        Describe in item 11 additional SDF capabilities not discussed previously.




                                                                 Request for Information - State Defense Forces                                     Page 6 of 13




48 │ DODIG-2014-065
                                                                                                                                                 Appendixes



State Defense Forces Structured Questionnaire for
State Defense Force Commanders (cont’d)
     Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

              (1) Aviation/Airlift (include type and number of aircraft)




              (2) Command and Control (C2) (includes JAG, chaplain and other staff functions)




              (3) Chemical, Biological, Radiological, Nuclear and high yield Explosives (CBRNE) response




              (4) Engineering




              (5) Medical (includes physicians, physician assistants, nurses and other allied health professionals but does not
              include medics)




              (6) Communications (includes information technology/management)




              (7) Transportation (also include number/types of vehicles authorized for military operations)




              (8) Security (Military Police, Constabulary, Troops assigned security duties, etc.)




                                         Request for Information - State Defense Forces                                      Page 7 of 13




                                                                                                                                            DODIG-2014-065 │ 49
Appendixes



                 State Defense Forces Structured Questionnaire for
                 State Defense Force Commanders (cont’d)
                           Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

                                     (9) Logistics




                                     (10) Maintenance




                                     (11) Other (if applicable)




                      b. Describe training and qualifications required for all SDF personnel in order to maintain currency and readiness to meet the
                      needs of the SDF mission.




                      c. Describe weapons qualification requirements (if any) for SDF personnel. List types of weapons trained on/qualified with, as
                      well as intent of the training and qualification, such as protection and defense of SDF personnel, unit equipment, and /or
                      property under the care or charge of SDF personnel during authorized missions.




                      d. Describe the formal command inspection program for units, personnel, and equipment, if any. Describe any external formal
                      evaluation and/or inspection activities by the state National Guard, Inspector General, Military Department and/or Office of the
                      Adjutant General.




                                                                  Request for Information - State Defense Forces                              Page 8 of 13




50 │ DODIG-2014-065
                                                                                                                                                Appendixes



State Defense Forces Structured Questionnaire for
State Defense Force Commanders (cont’d)
        Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000



   e. Describe appropriations (funds) allocated for use by the SDF by the state. Describe other funds from all sources, to include
   grants/cooperative agreements (local, State, Federal) that support SDF activities, operations and personnel.




  3. Organization and Coordination

   a. Is the SDF integrated into the Joint Staff Headquarters - State and/or any other state command and control entity?

        Yes (describe how)




        No

   b. Does the SDF implement the National Incident Management System (NIMS) in planning and operation?

        Yes (describe how)




        No

   c. Are SDF personnel and resources included as options in plans pursuant to an Emergency Management Assistance Compact
   request from another state?

        Yes (describe how)




        No


                                           Request for Information - State Defense Forces                                   Page 9 of 13




                                                                                                                                           DODIG-2014-065 │ 51
Appendixes



                 State Defense Forces Structured Questionnaire for
                 State Defense Force Commanders (cont’d)
                             Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

                        d. Is the SDF included in the state's Military Department/National Guard Level 3 "All Hazards" contingency plans responding to
                        threats/potential disasters as determined by the state Adjutant General?

                            Yes (describe how)




                            No

                        e. Does the SDF have plans or readiness procedures, in coordination with the state Military department and/or National Guard,
                        in the event the SDF is federalized as a militia force (not as part of the Armed Forces per the prohibition in Title 32, United
                        States Code, Section 109) pursuant to the Insurrection Act as authorized under Title 10, United States Code, Sections 331-333?

                            Yes (describe how)




                            No

                      4. If your mission, as described in Section III of this survey, includes domestic law enforcement tasks, answer the
                      following two questions. Such tasks include, but are not limited to: civil disturbance support operations; access, traffic
                      and crowd control; site, perimeter, and area security operations; critical infrastructure protection; convoy security; high
                      risk personnel security; criminal investigations support.

                        a. Describe what measures, procedures and requirements exist to validate training and skill required to accomplish domestic
                        law enforcement tasks. Include information regarding state and/or federal training standards used, as well as validation and/or
                        accreditation procedures.




                        b. Describe the rules in the use of force policy and how they are determined.




                                                                Request for Information - State Defense Forces                                 Page 10 of 13




52 │ DODIG-2014-065
                                                                                                                                             Appendixes



State Defense Forces Structured Questionnaire for
State Defense Force Commanders (cont’d)
         Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000

  SECTION IV: INTERACTION WITH STATE NATIONAL GUARD AND FEDERAL ENTITIES

  1. SDF Interaction with State National Guard

    a. Has the SDF requested any access to state National Guard training, equipment, and/or facilities?

        Yes (describe how)




        No

    b. Has the SDF experienced positive interaction and coordination between the SDF and the state National Guard regarding
    resourcing, training, and any other support for the SDF mission(s) ?

        Yes (describe how)




        No

    c. Has the SDF experienced any impediments to effective cooperation with the state National Guard concerning resourcing,
    training, and any other support for the SDF mission(s) ?

        Yes (describe how)




        No




                                            Request for Information - State Defense Forces                              Page 11 of 13




                                                                                                                                        DODIG-2014-065 │ 53
Appendixes



                 State Defense Forces Structured Questionnaire for
                 State Defense Force Commanders (cont’d)
                             Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000




                      2. SDF Interaction with Federal Entities

                        a. Are there SDF policies and procedures for requesting assistance, support, equipment, funding, guidance, or other support
                        from the NGB/DoD?

                            Yes (describe )




                            No

                        b. Has the SDF requested any access to training, equipment, facilities, funding and/or other support from the NGB/DoD?

                            Yes (describe )




                            No

                        c. What positive interaction and coordination has occurred, if any, between the SDF and the NGB/DoD regarding resourcing,
                        training, and any other support for the SDF mission(s) ?




                        d. Has the SDF experienced any impediments to effective cooperation with the NGB/DoD concerning resourcing, training, and
                        any other support for the SDF mission(s) ?




                                                                 Request for Information - State Defense Forces                               Page 12 of 13




54 │ DODIG-2014-065
                                                                                                                                            Appendixes



State Defense Forces Structured Questionnaire for
State Defense Force Commanders (cont’d)
       Department of Defense, Office of Inspector General, Special Plans & Operations, Project Number D2010-DIP0E-0156.000



   e. Has the SDF submitted requests to Federal entities other than NGB or DoD for assistance, support, equipment, guidance and/
   or funding? If yes, identify which entities and describe the nature, date, and disposition of the requests.

       Yes (describe )




       No


  SECTION V: ADDITIONAL ISSUES

   The DODIG welcomes any other information not otherwise requested for on this survey that the SDF may want to
   communicate to us. You may provide additional information on this form or in separate correspondence.




                                          Request for Information - State Defense Forces                               Page 13 of 13




                                                                                                                                       DODIG-2014-065 │ 55
Appendixes




                 Appendix E
                 Scope and Methodology
                 This report addresses the relationship and interaction between DoD and state
                 military entities known as SDF.      As a result of our research, we determined that
                 DoD did not manage the SDF program. We therefore excluded that element of
                 our objective from this report.

                 We conducted this assessment in accordance with the standards published in the
                 Quality Standards for Inspections.      We planned and performed the assessment to
                 obtain sufficient and appropriate evidence to provide a reasonable basis for our
                 observations and conclusions, based on our assessment objectives.

                 We researched the history of State Defense Forces. We reviewed Federal and state
                 laws and regulations as well as published regulations and doctrine from the Office
                 of Management and Budget, Joint Staff, and other DoD policy with regard to SDF.
                 We examined articles and other publications provided by the Assistant Secretary
                 of Defense for Homeland Defense, U.S. Northern Command, Joint Chiefs of Staff,
                 National Guard Bureau, U.S. Army, and several state National Guard and
                 Defense Forces.

                 We conducted 22 interviews and/or visited representatives from the Assistant
                 Secretary of Defense for Homeland Defense and Americas’ Security Affairs,
                 Assistant Secretary of Defense for Reserve Affairs, Secretary of the Army,
                 Assistant Secretary of the Army for Manpower and Reserve Affairs, National
                 Guard Bureau, U.S. Northern Command, and the National Guard and Defense
                 Forces of several states. We also met with representatives of the State Guard
                 Association of the United States and several senior leaders of state Defense Forces
                 to discuss their interpretation of regulations.

                 We conducted site visits to United States Northern Command in July 2010 and
                 to the State Guard Association of the United States convention in Albuquerque,
                 New Mexico, in October 2010.




56 │ DODIG-2014-065
                                                                                      Appendixes



The team prepared and distributed structured questionnaires to each of the
22 states and 1 territory with current active State Defense Forces. Two versions
were sent to each state: One version to the Commanding General of the State
Defense Force and the other to The Adjutant General. The version from
Commanding Generals of the State Defense Force focused on SDF demographics
and operational missions and capabilities. The version for the Adjutants General
asked questions concerning legal status, state policy, and interaction between the
National Guard and the State Defense Force within the state. We received
19 responses from SDF commanders and 18 from state adjutant’s general.




                                                                                 DODIG-2014-065 │ 57
Appendixes




                 Appendix F
                 Other Military Auxiliaries
                 The U.S. Navy, Air Force and Coast Guard have well regulated and funded
                 military auxiliaries consisting mostly of uniformed civilian volunteers: The Naval
                 Militia, Civil Air Patrol, and the U.S. Coast Guard Auxiliary.


                 Naval Militia
                 The Naval Militia is established in Federal statute and administered under the
                 authority of a state government.43 Similar to the National Guard, Naval Militias
                 are considered part of the organized militia under Federal law.          Unit members
                 are Navy and Marine Corps reservists, retirees, and other volunteers. Seamen
                 and state Marines belonging to Naval Militias may be enlisted or commissioned
                 into the Federal sea services at the rank for which they are qualified, at the discretion
                 of the service secretary.

                 The Secretary of the Navy may make vessels, material, armament, equipment, and
                 other facilities of the Navy and the Marine Corps available to Naval Militia units.
                 In order to qualify, “at least 95 percent of the members of the portion or unit of
                 the Naval Militia to which the facilities would be made available are members of
                 the Navy Reserve or the Marine Corps Reserve; and the organization, administration,
                 and training of the Naval Militia [must] conform to standards prescribed by
                 the Secretary.”


                 Civil Air Patrol
                 The Civil Air Patrol is a non-profit corporation that serves as the official auxiliary
                 of the U. S. Air Force. Chartered by Congress and provided with Federal funding,
                 the Civil Air Patrol performs emergency services, aerospace education, and cadet
                 training as assigned by the U.S. Air Force. Headquarters, Civil Air Patrol is located
                 on Maxwell Air Force Base and staffed with nearly 100 fulltime civilian employees,
                 who provide support to 57,000 members stationed in all 50 states, the District
                 of Columbia, and Puerto Rico.

                 The U.S. Air Force provides direct linkage between the service and it’s auxiliary.
                 It is responsible for providing guidance, assistance, and oversight to Civil Air Patrol
                 organizations nationwide, and serves as the Air Force program office executing

                 	43	
                        Sections 7851-7854, title 10, United States Code.




58 │ DODIG-2014-065
                                                                                                                  Appendixes



the Civil Air Patrol cooperative agreement. Headquarters Civil Air Patrol – U.S. Air
Force is staffed with 19 Air Force active-duty military and civil servants, and is also
located at Maxwell Air Force Base. The eight geographic regions of Civil Air Patrol –
U.S. Air Force include over 350 active-duty and reserve members of the U.S. Air Force.

While present in virtually all U.S. states and territories, the Civil Air Patrol is
U.S. Air Force-centric. Civil Air Patrol – U.S. Air Force officials stated that, in some
states, the relationship between the Civil Air Patrol and the host state is minimal
to non-existent, bordering on indifference.


U.S. Coast Guard Auxiliary
The United States Coast Guard Auxiliary was founded in 1939 as a nonmilitary
organization administered by the Commandant under the direction of the
Secretary.44  The 32,000 volunteer members are U.S. citizens, 17 years or older and
stationed in all 50 states, Puerto Rico, the Virgin Islands, American Samoa, and
Guam. Unlike the other services auxiliaries, the statute establishing the U.S. Coast
Guard Auxiliary addresses Coast Guard use of private, corporate, partnership, or
association vessels and other equipment, and authorizes the expenditure of Coast
Guard appropriations for compensation for such use.

Members of the U.S. Coast Guard Auxiliary are probably best known for public
education through boating safety classes and vessel safety checks. However, the
Coast Guard Authorization Act of 1996 allowed Auxiliary members to assist
the Coast Guard in performance of any function, duty, role, mission, or operation
authorized by law and authorized by the Commandant.


Comparisons With State Defense Forces
Each of the service auxiliaries differ, but have commonalities with SDF. The Naval
Militia and SDF are both uniform-wearing military organizations, although the
Naval Militia is akin to the National Guard as part of the organized militia of the
United States.             SDF are similar to the Civil Air Patrol and the U.S. Coast Guard
Auxiliary in that their members are unpaid volunteers, with the major difference
being that in most states SDF are considered part of the state military
establishment              and      are     subject      to   involuntary   call   to   state   active   duty.




	44	
       Sections 821-832, title 14, United States Code.




                                                                                                             DODIG-2014-065 │ 59
Appendixes



                 The primary and most significant functional characteristic differentiating SDF
                 from the rest is the lack of a Federal nexus resulting from section 109(d), title 32,
                 United States Code.  The other three organizations each have a strong connection
                 to their Federal services. The majority of Naval Militia personnel are also reserve
                 members of their respective services.  There are over 250 active-duty and reserve
                 members of the U.S. Air Force assigned to provide advice and liaison to the
                 Civil Air Patrol. The Commandant of the Coast Guard directly administers the
                 U.S. Coast Guard Auxiliary.  The Civil Air Patrol is even explicitly authorized to use
                 National Guard facilities and equipment, and receive technical and administrative
                 support.45 SDF have no such authorization.




                 	45	
                        Section 508, title 32, United States Code, “Assistance for certain youth and charitable organizations,” in addition to the
                        Civil Air Patrol, includes the Boy and Girl Scouts of America, Boys and Girls Clubs of America, Campfire Boys and Girls,
                        Police Athletic League, and the Special Olympics, among others.




60 │ DODIG-2014-065
                                        Management Comments




Management Comments
Under Secretary of Defense for Policy




                                              DODIG-2014-065 │ 61
Management Comments



                 Under Secretary of Defense for Policy (cont’d)




62 │ DODIG-2014-065
                                                   Acronyms and Abbreviations




Acronyms and Abbreviations
California SDF California State Military Reserve
         IAW In accordance with
New York SDF New York Guard
         NGB National Guard Bureau
          NG National Guard
          SDF State Defense Forces
    Texas SDF Texas State Guard
    USJFCOM United States Joint Forces Command
USNORTHCOM United States Northern Command
   USPACOM United States Pacific Command
USSOUTHCOM United States Southern Command




                                                              DODIG-2014-065 │ 63
           Whistleblower Protection
          U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD
Hotline Director. For more information on your rights and
remedies against retaliation, go to the Whistleblower webpage at
             www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               Congressional@dodig.mil; 703.604.8324

                            Media Contact
               Public.Affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                      Reports Mailing List
                    dodig_report@listserve.com

                              Twitter
                        twitter.com/DoD_IG

                          DoD Hotline
                         dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
